( l­
'..

   -",
     ;l'''''IO
~"+'~4"ovrCE~S."S'

                           DEPARTMENT OF
                           DEPARTMENT OF HEALTH
                                         HEALTH &.
                                                &. HUMAN SERVICES                                     Office of
                                                                                                      Office of Inspector
                                                                                                                Inspector General


                                                                                                      Washington,
                                                                                                                          General


                                                                                                                  D.C. 20201
                                                                                                      Washington, D.C. 20201




                                                            NOV
                                                            NOV 1100 2008

                                                                      2008

               TO:                 Kerry
                                   Kerry Weems



                              ~%/~
                                   Acting Administrator
                                   Centers for .Medicare
                                               .Medicare &
                                                         & Medicaid
                                                           Medicaid Services




                              ~
                                         ~~
               FROM:                      E. Vengrin
                                    oseph E. Vengrn
                                   Deputy Inspector General for Audit Services


               SUBJECT: Review ofof
                          Review  Clinic
                                    Clinicand
                                           andPractitioner
                                               PractitionerClaims
                                                            Claims Billed
                                                                   Billed as Family Planning
                                                                                    Planing Services
                                                                                             Services
                          Under the New York State Medicaid Program (A-02-07-01037)


               Attached is an advance copy of of our final report on our review ofof clinic and practitioner
                                                                                                practitioner claims
               billed as family planning
                                 planing services
                                          servicesunder
                                                   underthe
                                                          the New
                                                              New York
                                                                    York State
                                                                          State (the State) Medicaid
                                                                                             Medicaid program.
                                                                                                        program. We
               wil issue this report to New  York  State within  5 business  days.
               will issue this report to New York State within 5 business days.

               Our objective was to determine whether the State properly claimed enhanced 90-percent Federal
               reimbursement for family planning
                                         plannng claims
                                                  claims submitted
                                                          submitted by
                                                                    by clinics
                                                                       clinics and
                                                                               and practitioners.

                          improperly received
               The State improperly    received enhanced
                                                enhanced90-percent
                                                           90-percentFederal
                                                                        Federalreimbursement
                                                                                 reimbursementfor  forfamily
                                                                                                        familyplanning
                                                                                                                planng
               claims submitted by clinics and practitioners.
                                                 practitioners. Of
                                                                 Ofthe
                                                                    the 119
                                                                        119 claims
                                                                             claims in
                                                                                     in our
                                                                                        our sample,
                                                                                            sample, 1717 qualified as
                      plannng services.
               family planning   services. However,
                                           However,the
                                                     theremaining
                                                          remaining 102
                                                                      102 did
                                                                          did not. OfOfthose
                                                                                        those 102
                                                                                               102 claims,
                                                                                                    claims, 96
                                                                                                            96 were for
               servicesunrelated
               services  unelated to
                                   to family
                                      family planning,
                                             planing, 22did
                                                          didnot
                                                              notinclude
                                                                  includeaa properly
                                                                            properly completed
                                                                                       completed sterilization
               consent form,
               consent  form, 3 lacked documentation, and 1 waswas for a service
                                                                          service that
                                                                                   that was
                                                                                        was not
                                                                                             not provided.
                                                                                                 provided. Based
                                                                                                             Based on
               our sample results, we estimated that the State improperly
                                                                 improperly received
                                                                              received $$17,151,156
                                                                                         17,151,156 in Federal
               Medicaid reimbursement.

               This overpayment occurred
                                  occured because              incorrectly claimed
                                           because providers incorrectly   claimed services
                                                                                   services as  family planning,
                                                                                             as family
               and the State's
                       State's Medicaid
                               Medicaid Management
                                         Management Information
                                                       Information System
                                                                    System (MMIS)
                                                                             (MMIS) edit
                                                                                     edit routines
                                                                                          routines did
                                                                                                   did not
                                                                                                       not
               adequately identify
               adequately  identifyclaims
                                    claimsunrelated
                                           unelated to
                                                     to family
                                                         familyplanning.
                                                                planing.

               We recommend that the State:

                      •.    refund$17,151,156
                           refund  $17,151,156 to
                                               to the
                                                  the Federal
                                                       FederalGovernment,
                                                               Governent,


                      •. reemphasize
                           reemphasizetotoproviders
                                            providersthat
                                                      thatonly
                                                          onlyservices
                                                               services directly related
                                                                                 related to
                                                                                          to family
                                                                                              family planning
                                                                                                     planing should
                                                                                                              should be
                                                                                                                     be
                           billed as family planning,
                                  as family  plannng,
Page 2 – Kerry Weems


   •   ensure that MMIS edit routines use all appropriate claim information to identify claims
       that are ineligible for enhanced 90-percent Federal reimbursement, and

   •   determine the amount of Federal Medicaid funds improperly reimbursed for claims
       unrelated to family planning subsequent to our audit period and refund that amount to the
       Federal Government.

In its comments on our draft report, the State generally concurred with our recommendations.
Regarding our first recommendation to refund $17,151,156 to the Federal Government, the State
requested copies of our related working papers and indicated that, following a review of the
working papers, it will refund any excess Federal reimbursement associated with claims
inappropriately classified as family planning.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through e-mail at James.Edert@oig.hhs.gov. Please refer to report number A-02-07-01037 in
all correspondence.


Attachment
(-t ~UR"'C...
    .....n.RvIC,¡




(-tdÈ
 ....~
\+~'><,,-::::i:
  "'t ~\'''d'3a
                        DEPARTMENT OF HEALTH
                        DEPARlMENT OF HEALTH &
                                             & HUMAN
                                               HUAN SERVICES
                                                     SERVICES
                                                                                                 Ofice
                                                                                                 Office Of
                                                                                                 Office
                                                                                                 Office Of




                                                                                                 Region
                                                                                                           Inspeor General
                                                                                                        Of Inspector
                                                                                                        Of Audtt




                                                                                                 Region IIII
                                                                                                                     General
                                                                                                           Audit Services
                                                                                                                 Services




                                                                                                 Jacob
                                                                                                 Jacob K.
                                                                                                       K. Javtts
                                                                                                          Javlts Federal
                                                                                                                 Federal Building
                                                                                                                         Building
                                                                                                 26
                                                                                                 26 Federal
                                                                                                    Federal Plaza
                                                                                                            Plaza
                                                      NOV 11332DOF

                                                      NOV      200F
                                                                                                  New
                                                                                                  NewYork,
                                                                                                      York, NY
                                                                                                            NY 10278
                                                                                                               10278. .
     Report Number:
     Report Number: A-02-07-01037
                    A-02-07-01037

     Richard F.
     Richard        F. Daines,
                       Daines, M.D.
                                 M.D.
      Commissioner
     Commissioner
     New
     New      York
         York State    Stateof Department
                    Departent  
          of Health
                                             Health
      14th Floor,
     14th    Floor, Coming
                        Coming Tower
     Empire State Plaza
     Albany, New York 12237       12237

     Dear Dr. Daines:

     Enclosed is the U.S. Department of Health
     Enclosed is the U.S. Deparment of    Health    andServices
                                               and Human  Human        Office of 
 (HHS), Office of Inspector
                                                                (HHS),Services

     General (OIG), final report entitled "Review
                                          "Review of   of Clinic
                                                           Clinic and
                                                                    and Practitioner
                                                                           Practitioner Claims Billed as Family
     PlanningServices
     Planing   Services Under
                         Under the New York State
                                               State Medicaid
                                                         Medicaid Program."
                                                                       Program." We   We will    forward aa copy of
                                                                                           will forward           of
     this report to the HHS action official notedon
                                   offcial noted    on the
                                                         the following
                                                              following page  page for
                                                                                    for review
                                                                                        review andand any
                                                                                                      any action
                                                                                                           action
     deemed necessary.

     The HHS action official will make final
                                           final determination as
                                                                as to
                                                                   to actions
                                                                      actions taken
                                                                               taken on
                                                                                      on all
                                                                                          all matters
                                                                                              matters reported.
     We request that you
                      you respond
                           respond to
                                    to this
                                        this official
                                             offcial within 30 days from the date
                                                                                date of
                                                                                     of this
                                                                                        this letter.
                                                                                              letter. Your
     response should present any comments or additional information that    that you believe may have a
     bearing on the final
     bearng on      final determination.
                          determination.

     Pursuant
     Pursuant to the to  the principles
                      principles of     of the   Freedom
                                           the Freedom of 
                 Act, 5 U.S.C.
                                                             of Information Act,   U.S.c. §§ 552,
                                                                                             552, as amended by
     Public Law 104-231, OIG reports generally are made available to the public to the extent the
     information is not subject to      to exemptions
                                           exemptions in    in the
                                                               the Act
                                                                   Act (45
                                                                       (45 CFR
                                                                           CFR part
                                                                                part 5).
                                                                                     5). Accordingly, the final
     report will be posted on the Internet at http://oig.hhs.gov.

     If you have any questions or comments about this report, please do not hesitate to call me,
                                                                                             me, or
     contact John Berbach, Audit Manager,
                                  Manager, at (518) 437-9390, extension 228, or through e-mail at
     John.Berbach@oig.hhs.gov.
     John.BerbachGyoig.hhs.gov. Please refer to report number A-02-07-01037 in all correspondence.

                                                         Sincerely,
                                                         Sincerely,



                                                       C.~de~~
                                                       J:.~d!M:
                                                         Regional Inspector General
                                                         Regional            General
                                                           for Audit
                                                          for  Audit Services
                                                                     Services


     Enclosure
     Enclosure
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF CLINIC AND
    PRACTITIONER CLAIMS
 BILLED AS FAMILY PLANNING
    SERVICES UNDER THE
      NEW YORK STATE
     MEDICAID PROGRAM




                    Daniel R. Levinson
                     Inspector General

                     November 2008
                     A-02-07-01037
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                              EXECUTIVE SUMMARY

BACKGROUND

Pursuant       toXITitle
Pursuant to Title     of 
   XIX of the  the Social
                                                Social Security
                                                           Securty Act Act (the
                                                                              (the Act),
                                                                                    Act), the
                                                                                           the Medicaid
                                                                                               Medicaid program
                                                                                                         program provides
medical assistance to low-income individuals             individuals and  and individuals
                                                                                 individuals with
                                                                                               with disabilities.
                                                                                                    disabilities. The Federal and
State    Governments
State Governents  jointly fud andjointly
                                  administer fund     andprogram.
                                              the Medicaid administer       the
Medicaid program. At the Federal level, the
                                                                  At the Federal

Centers for
Centers             Medicare &
              for Medicare           & Medicaid Services              (CMS) administers
                                                         Services (CMS)           adminsters the Medicaid program.
                                                                                                                program. Each
                                                                                                                          Each
State administers its Medicaid program in accordance with a CMS-approved State                                  State plan.
Although the State has considerable flexibility in designing                    designng andand operating
                                                                                                operating its
                                                                                                            its Medicaid
                                                                                                                Medicaid program,
it must comply with applicable Federal requirements.

The    Federal
The Federal share of share
                     
        of the Medicaid program is determined     determned by
                                                                                   by the
                                                                                       the Federal
                                                                                           Federal medical assistance
percentage
percentage (FMAP). (FMAP).         During
                   Durng our audit period  (Aprilour
                                                   
    audit period (April 1,1, 2003,
                                                                                 2003, through
                                                                                        through March
                                                                                                March 31,2007),
                                                                                                        31,2007), the
FMAP        in State
FMA in New York  New(theYork      State
                           State) was  50 or (the    State)Section
                                              52.95 percent.       50 or 52.95
                                                             was1903(a)(5) of  percent. Section 1903(a)(5) of the Act and
42 CFR §§ 433.10 and 433.15 provide enhanced                   enhanced 90-percent Federal reimbursement for family
planning
planng services.services.      Pursuant
                 Pursuant to section  4270 of 
 to section 4270 of the CMS "State Medicaid Manual/' Manual/' family
                                                                                                              family
planng
planning    services
                servicesprevent
                             preventorordelay    delaypregnancy
                                                          pregnancy or or otherwise control family
                                                                                             family size.
                                                                                                    size.

OBJECTIVE

Our objective was to determine whether
                               whether the State
                                           State properly
                                                 properly claimed
                                                          claimed enhanced
                                                                  enhanced 90-percent
                                                                             90-percent Federal
reimbursement for
reimbursement  for family
                    familyplanning
                           planng claims
                                   claimssubmitted
                                          submitted by
                                                    by clincs
                                                       clinicsand
                                                               andpractitioners.
                                                                  practitioners.

SUMY OFOF
SUMMARY FINDINGS
          FINDINGS

The State improperly received enhanced 90-percent Federal reimbursement for                                 for family
                                                                                                                familyplanning
                                                                                                                         plannng
claims
claims      submitted
       submitted             bypractitioners.
                 by clinics and  clinics and   Of   practitioners. Of the       the 119  claimsininour
                                                                                    119 clais       oursample,
                                                                                                        sample,1717qualified
                                                                                                                    qualified as

                                                                                                                              as
family planning
            planng services.
                           services.However,
                                          However,the      theremaining
                                                                 remaining102     102did
                                                                                      didnot.
                                                                                           not.Of
                                                                                                Ofthose
                                                                                                    those102
                                                                                                          102claims,
                                                                                                              claims, 96
                                                                                                                       96 were
                                                                                                                           were for
services       unelated to
services unrelated            to family planng,
                                             planning,2 2did    didnot notinclude
                                                                             includea aproperly
                                                                                         properlycompleted
                                                                                                   completedsterilization
                                                                                                              sterilizationconsent
                                                                                                                            consent
form, 3 lacked documentation, and 1 was for a service that was                             was not
                                                                                                not provided.
                                                                                                    provided. Based on our
sample results, we estimated that              that the State
                                                            State improperly
                                                                     improperly received $17,151,156
                                                                                               $17,151,156 inin Federal
                                                                                                                Federal Medicaid
reimbursement. This        This overpayment
                                   overpayment occured   occurredbecausebecauseproviders
                                                                                    providersincorrectly
                                                                                               incorrectlyclaimed
                                                                                                           claimed services
                                                                                                                     services as
family planng,
family     planning,        and the
                   and the State's      State's
                                   Medicaid         Medicaid
                                            Management              Management
                                                       Information System (MIS)        Information System (MMIS) edit
routines did  did notnot adequately
                           adequatelyidentify identifyclaimsclaimsunrelated
                                                                        unelatedtotofamily
                                                                                        familyplanning.
                                                                                                planng.

RECOMMNDATIONS
RECOMMENDATIONS

We recommend that the State:
                      State:

     • refud
     ·  refund$17,151,156
                $17,151,156toto the
                                the Federal
                                    FederalGovernment,
                                            Governent,



     ·• reemphasize
          reemphasize  to to
                           providers that
                             providers thatonly
                                            onlyservices
                                                 servicesdirectly
                                                          directlyrelated
                                                                   relatedto
                                                                           to famly
                                                                               familyplannng
                                                                                      planningshould
                                                                                               shouldbe
                                                                                                      be
          biled
          billedas
                 as family   plannng,
                     family planning,




                                                                 11
     .• ensure
          ensurethat
                  thatMMIS
                       MMISeditedit routinesuse
                                  routines   useall
                                                 allappropriate
                                                     appropriate claim
                                                                 claim information
                                                                        infonnation to
                                                                                     to identify
                                                                                         identifyclaims
                                                                                                 claims
          that are ineligible for enhanced 90-percent Federal reimbursement, and  and

     •    determine the amount of Federal
     . determine the amount of
            Medicaid funds
                                   Federal Medicaid  fuds improperly
                                                           improperlyreimbursed
                                                                       reimbursed for
                                                                                   for claims
                                                                                       claims
          unelated to famly planing subsequent to our audit period and refud that amount to
          unrelated to family planning subsequent to our audit period and refund that amount  to the
                                                                                                 the
          Federal  Governent.
          Federal Government.

NEW YORK STATE
         STATE COMMENTS
               COMMENTS AND
                        ANDOFFICE
                            OFFICEOF
                                  OFINSPECTOR
                                     INSPECTORGENERAL
                                               GENERA
RESPONSE

In its comments on our draft report, the State generally concurred                      concured with
                                                                                                   with our
                                                                                                        our first
                                                                                                             first recommendation
                                                                                                                    recommendation
and fully concurred
                 concured with    with our ourremaining
                                                 remaining recommendations.
                                                                 recommendations. Regarding Regardingourourfirst
                                                                                                            first recommendation
                                                                                                                   recommendation
torefud
to    refund     $17,151,156
          $17,151,156                  to the the
                       to the Federal Governent, Federal     Government,
                                                    State requested copies of     the State requested copies of our  our related

                                                                                                                         related
working papers and indicated that,                that, following
                                                          following aa review review ofofthe
                                                                                          theworking
                                                                                              workingpapers,
                                                                                                        papers,ititwill
                                                                                                                     willrefund
                                                                                                                          refud any
excess" Federal reimbursement associated with
excess"                                                             with claims
                                                                             claims inappropriately
                                                                                      inappropriately classified as family
planning.
plang.            We will provide the
        We wil provide                        theState
                                                   State    withofcopies
                                                       with copies    
         of working
                                                                                   working papers    relatedtotoclaims
                                                                                             papers related       clais questioned
                                                                                                                          questioned
by our audit. The        TheState's
                                State'scomments
                                            commentsare     areincluded
                                                                   includedinintheirtheirentirety
                                                                                          entiretyas
                                                                                                   asAppendix
                                                                                                     AppendixC.   C.




                                                                  11
                                                        TABLE
                                                        TABLEOF
                                                              OFCONTENTS
                                                                CONTENTS

                                                                                                                                           Page


 INTRODUCTION
INTRODUCTION....................................................................................................................11


          BACKGROUND
          BACKGROUN         .......... ........ ......... ................................. ........ .......... ...................... .......11
                MedicaidProgram
              Medicaid          PrograIIl..............................................................................................1
1

                New York
              New       YorkStateStateMedicaid
                                           MedicaidProgram PrograIIl...................................................................1
1

                Medicaid
               Medicaid CoverageCoverage
                                 of              ofFamily
                                                     Family Plannng
                                                                  PlaimingServicesServices..............................................2
      2

                MedicaidCoverage
               Medicaid         CoverageofofAbortionsAbortions                                                                            ; ...22

                                                                    ......... ...................... ........................ ...... .......

          OBJECTIVE,SCOPE,
          OBJECTNE,   SCOPE,AN      AND       METHODOLOGY
                                         METHODOLOGy                      .......... ............ ................ ....... ...... .......3
      3

               Objective ............................................................................................................33

               Objective
               Scope                      ;
               Scope.....................;............................................................................................3          3
               Methodology             ~                                                                                                         3
               Methodology ....... .... ............. .... ........ ......... ... .... ..... ......... ........ ... ......... ... ...... ... ....3

FINDINGS AND
FINDINGS     RECOMMENDATION S
         AND RECOMMENDATIONS ............................................................................4

                                                                                                        4


          SERVICES UNRELATED
          SERVICES           TO FAMILY
                    UNLATED TO         PLANNING
                                FAMY PLANG   ................................................55

          IMPROPERLYCOMPLETED
          IMROPERLY  COMPLETEDSTERIIZATION
                               STERILIZAnONCONSENT
                                            CONSENTFORMS
                                                    FORMS.....................5

                                                                              5


             DOCUMENTATION                                                                                              6

          NO DOCUMENTATION..............................................................................................6

           NO SERVICE PROVIDED ...........................................................................................: 6


           CAUSES OF THE OVERPAYMENTS
                            OVERPAYMENTS........................................................................77

                Itnproperly Coded Claims....... .......................... ..... :....... .......... ......... ............. ...... 7 .
                Improperly Coded Claims
                Inadequate Medicaid
                            Medicaid Management Information System Edit Routines                       Routines.............7


           ESTIMATION OFTHE
           ESTIMTION OF  THEUNALLOWABLE
                             UNALLOWABLEAMOUNT...............................................8
                                        AMOUNT.
                                             8


           RECOMMENDATIONS                                                                                                8

           RECOMMENDATIONS ...............................................................................................8

           NEW
           NEW YORK
               YORKSTATE
                    STATECOMMENTS
                          COMMENTSAND                  OFFICE OF
                                                AN OFFICE             OF INSPECTOR
                                                                            INSPECTOR
            GENERAL RESPONSE..............................................................................................8
            GENERA RESPONSE             ·..;                                                                              8

APPENDIXES
APPENDIXS
A
A -- SAMPLE DESIGN AND
     SAMLE DESIGN      METHODOLOGY
                   AN METHODOLOGY

BB- - SAMPLE
      SAMLE RESULTS
             RESULTSAND
                     AN ESTIMATES
                        ESTIMTES
C-NEWYORK
C - NEW YORK STATE
             STATE COMMENTS
                   COMMENTS


                                                                           ll
                                                                         III
                                                     INTRODUCTION
                                                     INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant       toXITitle
Pursuant to Title     of 
   XIX of the Social Securty     SecurityActAct (the
                                                                             (the Act),
                                                                                   Act), the
                                                                                          the Medicaid
                                                                                               Medicaid program
                                                                                                        program provides
medical assistance to low-income individuals and individuals                    individuals with
                                                                                              with disabilities. The Federal and
                                                                                                   disabilities. The
State    Governments
State Governents  jointly fud andjointly
                                  administer fund    andprogram.
                                              the Medicaid  administer     the
Medicaid program. At the Federal level, the
                                                                 At the Federal

Centers for MedicareMedicare &      & Medicaid
                                         Medicaid Services Services(CMS)
                                                                      (CMS)administers
                                                                                  admnisters the program.
                                                                                                   program. Each State
administers its Medicaid program in accordance with a CMS-approved                   CMS-approved State State plan.  Although the
                                                                                                               plan. Although
State has considerable flexibility in designing             designng and and operating
                                                                                operating its
                                                                                            its Medicaid
                                                                                                Medicaid program, it must
comply with applicable Federal requirements.

New York State Medicaid
New York       Medicaid Program
                        Program

In  New
In New       York
       York State (the State   (the
                       State), the     State),
                                   Deparent of the Department of Health (DOH) is the State agency responsible
for   operating
for operating         the program.
              the Medicaid Medicaid        program.
                                   Within the DOH, the OffceWithin
                                                            of 
   the DOH, the Office of Medicaid Management
administers the Medicaid  Medicaid program.
                                         program. DOH uses the Medicaid Management Management Information
                                                                                                 Inormation System
                                                                                                             System
(MMIS),
(MMIS), aa computerized
                  computerized payment  payment and    and information
                                                             information reporting
                                                                         reporting system,
                                                                                   system, to
                                                                                           to process
                                                                                              process and
                                                                                                      and pay
                                                                                                          pay
Medicaid claims.

The    Federal
The Federal share of share
                     
        of the Medicaid program i~ determined by the Federal medical assistance
percentage
percentage         (FMAP).
           (FMA). During            During
                         our audit period  (Aprilour audit period (April 1, 2003, through March 31, 2007), the

FMAP        in the
FMAP in the State      State
                  was 52.95               April 
 percent from April 1, 2003, through June 30, 2004, and
                               wasfrom52.95
                            percent

50 percent from July 1, 2004, through March 31, 2007.

Providers enrolled in the Medicaid
                          Medicaid program submit claims for    for payment
                                                                    payment to the State's
                                                                                     State's MMIS.
                                                                                             MMIS.
     Statefurnishes
The State  fushes ananMMS
                        MMISprovider
                               providermanual
                                         manualthat
                                                  thatcontains    instrctions for
                                                       contains instructions   forthe
                                                                                   the proper
                                                                                       proper
completion and submission of of claims. The
                                         The provider
                                              provider is
                                                        is required
                                                            required to
                                                                      to complete
                                                                         complete certain
                                                                                   certain fields on the
claim form to indicate  thetype
              indicate the  tye of
                                ofservce
                                    service provided.
                                            provided.

The MMIS
The     MMIS uses  uses aavariety
                               varetyof   of indicators
                                              indicatorson   onthe theMedicaid
                                                                       Medicaidclaim
                                                                                   claimform
                                                                                          formtotoidentify
                                                                                                    identifyfamily
                                                                                                              familyplanning
                                                                                                                     planng
services eligible for enhanced 90-percent Federal                Federal reimbursement.
                                                                          reimbursement. These
                                                                                             These indicators
                                                                                                      indicators include the
            planing indicator
family planning            indicatorcode,code,special
                                                   special program
                                                             program code,
                                                                         code, and
                                                                               and sterilization/abortion code.
                                                                                                              code. The
                                                                                                                     The State
agency considers all         all claims
                                  claims with
                                            with either
                                                     either aa ''Yes''
                                                                ''Yes'' or "1" in the family planning
                                                                                              planng indicator
                                                                                                          indicatorfield
                                                                                                                     fieldoror
special     program
special program code to be code    tofamily
                           related to       planing. If to family planning. If the service is related to an induced
                                      be related
abortion or sterilization, the provider must enter a proper code in the abortion/sterilization field.l                    field. l

All claims
All claims marked     "Yes" in
            marked "Yes"     in the
                                 thefamily
                                     familyplanning
                                            planng indicator
                                                     indicator field
                                                                field and "0" (Not
                                                                      and "0" (Not Applicable)      "F"
                                                                                   Applicable) or "F"
(Sterilization) in the abo~ion/sterilization  field are processed   for enhanced  90-percent   Federal
(Sterilization) in the abortion/sterilization field are processed for enhanced 90-percent Federal
reimbursement. However,
reimbursement.     However, for claims
                                   claims marked
                                          marked "Yes"
                                                   "Yes" in
                                                          in the
                                                              thefamily
                                                                  familyplanning
                                                                          planng indicator
                                                                                  indicator field
                                                                                             field with a

¡Codes for
lCodes     for this
                ths field
                     field are
                            are "0"
                                 "0" (Not
                                       (Not Applicable), "A" (Induced Aborton-Danger
                                                                                Abortion-Dangertotothe
                                                                                                     theWoman's
                                                                                                         Woman'sLife),
                                                                                                                 Life),"B"
                                                                                                                        "B"(Induced
                                                                                                                            (Induced
Abortion-Physical         Health
Abortion-Physical Health Damage     Damage
                                to the           to(Induced
                                        Woma), "C"  the Woman),        "C"of(Induced
                                                            Abortion-Victi   
       Abortion-Victim of Rape or Incest), "D" (Induced
Abortion-Medically Necessary),                                   Aborton-Elective), and
                            Necessary), "E" (Induced Abortion-Elective),              and "F"
                                                                                          "F" (Sterilization).
                                                                                               (Sterilization).


                                                                  1
                                                                  1
 codeother
code   otherthanthan"0"
                     "0"oror"F"
                             "F"ininthe
                                     theabortion/sterilization
                                         abortion/sterilizationfield,
                                                                field,the
                                                                       theMMIS
                                                                          MMISdenies
                                                                                 deniesthe
                                                                                        theclaim
                                                                                            claimand
                                                                                                  and
 returnsitittotothe
returns          theprovider
                     providerfor
                               forclarification
                                    clarificationbecause
                                                  becauseananabortion
                                                              abortionprocedure
                                                                        proceduredoes
                                                                                  doesnot
                                                                                       notqualify
                                                                                           qualifyas
                                                                                                   asaa
 family  planning    service.
family planing service.

MedicaidCoverage
Medicaid Coverageof
                  ofFamily
                    FamilyPlanning
                           PlanningServices
                                    Services

 Section 1905(a)(4)(C) ofthe
Section 1905(a)(4)(C) of 
                the Act
                                               Act requires
                                                   requires States
                                                            States to
                                                                    to furnish familyplaning
                                                                        fuish family   planning  servicesand
                                                                                               services   andsupplies
                                                                                                              supplies
 to individuals
to   individualsof      ofchildbearing
                            childbearingage     agewho
                                                    whoare
                                                         areeligible
                                                             eligibleunder
                                                                      underthe
                                                                             the State
                                                                                 State plan
                                                                                        planand
                                                                                             andwho
                                                                                                 whodesire
                                                                                                      desiresuch
                                                                                                             such
 services      and   supplies.        Section
services and supplies. Section 1903(a)(5) of 
   1903(a)(5) of  the Act  and 42  CFR   §§
                                                               the Act and 42 CFR §§ 433.10(c)(I) and
                                                                                          433.1O(c)(I)  and
433.15(b)(2) authorize enhanced 90-percent Federal
 433.15(b)(2)         authorize       enhanced     90-percent  Federal reimbursement
                                                                         reimbursement forforfamily
                                                                                              familyplanning  services.
                                                                                                     planng services.

Pursuant to section 4270 ofthe
Pursuant to section 4270 of 
                the CMSCMS "State
                                                          "State Medicaid
                                                                   Medicaid Manual" (the manual),
                                                                                               manual), family
                                                                                                            familyplanning
                                                                                                                      planing
services prevent or delay pregnancy or
services                                                 or otherwise   control family
                                                            otherwse control      family size. In Inaddition,
                                                                                                     addition, this
                                                                                                                 this section
                                                                                                                       section
 generally      pennits      an   enhanced
generally permits an enhanced 90-percent rate of 
 90-percent   rate of Federal
                                                                        Federal   reimbursement
                                                                                  reimbursement      for
                                                                                                      for counseling
                                                                                                          counseling    services
                                                                                                                         services
and patient
and    patient education;
                   education; examination
                                     examinationand     and treatment
                                                             treatment by by medical
                                                                             medical professionals
                                                                                       professionals pursuant
                                                                                                        pursuant to  to State
                                                                                                                        State
requirements;          devices      to   prevent     conception;    and  infertility services,
requirements; devices to prevent conception; and infertilty services, including sterilization   including     sterilization
reversals..The
reversals.        The manual
                         manual further
                                      further sayssays that
                                                       that abortions
                                                             abortions maymaynot
                                                                               notbe beclaimed
                                                                                        claimedasasaafamily
                                                                                                         familyplanning
                                                                                                                  planng
service. Only items and procedures clearly fuished or provided for family planing purposes
service.       Only     items    and    procedures       clearly  furnished   or provided   for  family    planning    puroses
may be
may     be claimed
             claimed at    at the
                               the enhanced
                                     enhanced 90-percent
                                                     90-percent rate
                                                                  rate of
                                                                       of reimbursement.
                                                                           reimbursement.

On January
On  January 30,
              30, 1991,
                  1991, CMS  issued Financial
                        CMS issued             Management Review
                                    Financial Management             Guide Number
                                                            Review Guide   Number 2020 (the
                                                                                       (the guide),
                                                                                            guide),
entitled ~'Family  Planning Services," to the State via Medicaid State Operations Letter 91-9. The
entitled ','Family Planing Services," to the State via Medicaid State Operations Letter 91-9. The
guide
guide states         that any
           states that      any procedure
                                  procedure providedprovided to    to aa woman
                                                                          woman known known to  to be
                                                                                                   be pregnant
                                                                                                      pregnant may
                                                                                                                may not
                                                                                                                     not be
                                                                                                                         be considered
                                                                                                                            considered
aa family
    family     planning       service      reimbursable          at the   enhanced
          planning service reimbursable at the enhanced 90-percent Federal rate of 

                                                                                          90-percent   Federal rate of reimbursement.
                                                                                                                       reimbursement..   '
Likewise,         tests and procedures perfonned during pregnancy, regardless of their purpose
 Likewise, tests and procedures performed during pregnancy, regardless of 

                                                                                                                    purose oror intent,
                                                                                                                                 intent,
are
 are not
       not considered
             considered family  family planning           serviceseligible
                                            planing services            eligible for for the
                                                                                          the enhanced
                                                                                              enhanced 90-percent
                                                                                                         90-percent Federal
                                                                                                                      Federal rate
                                                                                                                              rate of
                                                                                                                                    of
reimbursement.              Updates       to  the   CMS       guide     in  1993,
 reimbursement. Updates to the CMS guide in 1993, 1997, and 2002 contaned the same    1997,   and  2002  contained  the same
prOVISIons.
 provisions.

The
The State's
      State's Medicaid
              Medicaid State
                         State plan
                               plan says
                                     says that
                                           thatfamily
                                                familyplanning     servicesand
                                                        planng services      andsupplies
                                                                                  supplies for
                                                                                            for individuals
                                                                                                 individuals ofof
childbearing   age are  covered  without   limitations.  State  regulations   define family
childbearing age are covered without limitations. State regulations define family planing     planning
services
services as
          as the
              theoffering,
                  offering,arranging,
                            arranging,andandfurnishing
                                              fuishing ofofthose
                                                            thosehealth
                                                                   healthservices
                                                                           services that
                                                                                     that enable
                                                                                          enable individuals,
                                                                                                    individuals,
including  minors   who   may be  sexually   active, to prevent   or reduce  the incidence
 including minors who may be sexually active, to prevent or reduce the incidence of unwanted of  unwanted
pregnancies?
pregnancies.2 TheThe regulations
                      regulations state
                                   state that
                                         that such
                                              such services
                                                    services include
                                                              include professional
                                                                        professional medical
                                                                                      medical counseling
                                                                                                 counseling
services; prescription   drugs; nonprescription    drugs  and  medical    supplies  prescribed
 services; prescription drugs; nonprescription drgs and medical supplies prescribed by            by aa qualified
                                                                                                        qualified
physician,  nurse  practitioner, or  physician's  assistant; and   sterilizations.
-physician, nurse practitioner, or physician's assistat; and sterilzations.



Medicaid
Medicaid Coverage
         Coverage of
                  ofAbortions
                     Abortions
Since
 Since1977,1977,Congress
                     Congresshas     haspassed
                                            passedAppropriations
                                                       AppropriationsActs     Actsrestricting
                                                                                    restrictingFederal
                                                                                                Federalfunding
                                                                                                         fuding of
                                                                                                                of abortions.
                                                                                                                   abortions.
Pursuant       to  the   Supplemental           Appropriations            and Rescission
 Pursuant to the Supplemental Appropriations and Rescission Act of 1981, P.L. No. 97-12,  Act  of 1981,  P.L. No. 97-12,
Federal      funds are available for abortions perfonned only when the life of the
 Federal funds are available for abortions performed only when the life of 

                                                                                                        the mother
                                                                                                            mother would
                                                                                                                    would be
                                                                                                                           be
endangered
 endangered if 

                   if the
                        thefetus
                              fetuswerewerecarried
                                                carriedtototenn. term.Pursuant
                                                                          Pursuanttoto42
                                                                                       42CFR,
                                                                                           CFR,part
                                                                                                 par 441,
                                                                                                     441, subpart
                                                                                                           subpar E, Federal
                                                                                                                     Federal


20fficial   Compilation
 20ffcial Compilation of 
 of Codes,    Rules
                               Codes, Rules     and Regulations
                                            and Regulations of 
 of the
                                                                     the State     NewYork,
                                                                                of New
                                                                         State of
     York,Title
                                                                                             Title18,
                                                                                                   l8, §§ 505.13.
                                                                                                          505.13.


                                                                   22
reimbursement at the standard
reimbursement        standardFMAP  rateisisavailable
                              FMA rate      availablefor
                                                      forabortions
                                                          abortionsonly
                                                                    onlywhen
                                                                         whenaaphysician
                                                                                physicianhas
                                                                                          has
certified in writing to the Medicaid agency that the life of the
certified in wrting to the Medicaid agency that the life of 
themother
                                                                  mother would
                                                                         would       be endangered
                                                                               be endangered if
   ifthe
                                                                                                     the
fetus were
      were carried  to term.
             cared to   term.

OBJECTIVE,SCOPE,
OBJECTIV,  SCOPE,AND
                 AND METHODOLOGY
                     METHODOLOGY

Objective

Our objective
Our objective was
              was to
                   to determine
                      determine whether
                                whether the
                                         the State
                                             Stateproperly
                                                   properlyclaimed
                                                            claimed enhanced
                                                                     enhanced 90-percent
                                                                               90-percent Federal
reimbursement for
               for family
                    familyplanning  claims
                            plang claims   submittedbybyclinics
                                         submitted       clinicsand
                                                                 andpractitioners.
                                                                     practitioners.

Scope

Our audit period period covered
                            covered April   1, 2003,
                                     April 1,  2003, through
                                                      through March
                                                              March 31,31, 2007
                                                                           2007.. We
                                                                                  We did
                                                                                     did not
                                                                                         not review
                                                                                             review the
                                                                                                    the overall
                                                                                                        overall
internal
internal      control
         control          structure
                 strctue of 
        ofthe
                                        the State or
                                                  or the
                                                      the Medicaid  program. Rather,
                                                          Medicaid program.    Rather, we
                                                                                       we reviewed only
                                                                                                    only the
                                                                                                          the
internal     controls
internal controls that      that pertained directly
                                           directly  to our objective.

We performed fieldwork at
                        at DOH's
                           DOH'soffices
                                  officesininAlbany,
                                             Albany,New
                                                     NewYork;
                                                           York;the
                                                                 theState
                                                                     StateMMIS
                                                                          MMIS fiscal
                                                                                   fiscal agent
                                                                                           agent in
                                                                                                  in
Rensselaer, New York; and at numerous providers' offces
                                                   officesthroughout
                                                           throughoutthe
                                                                      theState
                                                                          Statefrom
                                                                                from
September  2007 through February 2008.
September 2007 through Februar 2008.



Methodology

To
To accomplish our objective, we:

      •. reviewed Federal
           reviewed       and
                    Federal   State
                            and Statelaws,
                                       laws,regulations,
                                              regulations,and
                                                           andguidance
                                                               guidanceand
                                                                        and the
                                                                             the State
                                                                                 State plan;

      •.    helddiscussions
           held  discussions with
                             with CMS
                                  CMSofficials
                                       officials and
                                                 and acquired
                                                     acquired an
                                                               an understanding
                                                                   understandingof
                                                                                 ofCMS
                                                                                    CMS guidance
                                                                                        guidance
            fushed totoState
            furnished   State offcials
                              officials concernng  Medicaidfamily
                                        concerning Medicaid familyplanning
                                                                    plang claims;
                                                                           claims;

      •.     helddiscussions
           held    discussionswith
                               withState
                                    Stateoffcials
                                          officialsto
                                                    to ascertain
                                                       ascertain State
                                                                 State policies,
                                                                        policies,procedures, and
                                                                                   procedures, andguidance
                                                                                                   gudance
            for claiming Medicaid reimbursement
                                  reimbursementfor
                                                forfamily
                                                    familyplanning services;
                                                           planng services;

      •. ran
           rancomputer
                 computerprograming
                                 programming        applications
                                                        applicationsatatthe
                                                                         theMMS
                                                                             MMISfiscal
                                                                                     fiscalagent,
                                                                                            agent, which
                                                                                                   which identified
           1,241,764 paid
           1,241,764         paid clinic
                                    clinc and and practitioner
                                                     practitioner claims
                                                                  claims for
                                                                           for services
                                                                               services billed at the enhanced
           90-percent
           90-percent rate ofrate
                              
     of Federal reimbursement by the State totaling $133,914,606
           ($120,398,791           Federal      share) for the period April 1,
           ($120,398,791 Federal share) for the period April 

                                                                                 1, 2003,
                                                                                    2003, through
                                                                                           through March
                                                                                                    March 31,2007;
                                                                                                           31,2007;

      •.    eliminatedfrom
           eliminated  fromthe
                            the 1,241,764
                                1,241,764 claims:
                                          claims:

                      363,667claims
                  oo 363,667   claimscontaining
                                      containingaaprimary  orsecondar
                                                   primaryor  secondarydiagnosis
                                                                        diagnosis code
                                                                                  code in
                                                                                       in the V25
                      series (encounter for contraceptive
                                            contraceptive management);3
3 AccordingtotoeMS's
3 According
                CMS'sFinancial
                       Fincial Management ReviewGuide
                               Management Review GuideNumber
                                                       Number20,
                                                              20,primary
                                                                   priry ororsecondar
                                                                              secondarydiagnosis
                                                                                        diagnosiscodes
                                                                                                  codes in
                                                                                                         in the
                                                                                                             the
V25
V25 series
    seriesindicate
           indicatethe
                    theprocedure/service
                        procedure/servicewas generally
                                           was         performed
                                               generally         for for
                                                          performed  a family planning
                                                                         a family plangpurpose.
                                                                                        purose.




                                                                3

                                                                3
                oo 71,531
                     71,531  claims
                           claims   having
                                  having   Federalpaid
                                         Federal   paidamounts
                                                        amountsthat
                                                                 thatwere
                                                                      werenot
                                                                           notequal
                                                                               equaltoto90
                                                                                         90percent
                                                                                           percent of
                                                                                                   of
                     their Medicaid
                    their  Medicaid paid
                                    paid amounts;
                                         amounts; and
                                                   and

                 o     332,083 claims reviewed by other Office ofInspector
                o 332,083 claims reviewed by other Offce of 
     InspectorGeneral
                                                                           Generalaudits;4
                                                                                   audits;4

     .• identified
           identified      a sampling
                       a sampling       frame  ofof
                                           frame    474,483clinic
                                                  474,483    clinicand
                                                                    andpractitioner
                                                                        practitionerclaims
                                                                                     claimsbilled
                                                                                            billedat
                                                                                                   at the
                                                                                                       the
           enhanced
          enhanced         90-percent
                   90-percent rate of 
   rate ofFederal
                                                 Federal reimbursement
                                                          reimbursementtotaling
                                                                          totaling$51,704,945
                                                                                   $51,704,945 ($46,532,392
                                                                                                 ($46,532,392
          FFederal share);
            ederal share);



     .• used
          used stratified random
             stratified   randomsampling
                                 samplingtechnques
                                          techniques
                                                   to to
                                                       select     sampleofof119
                                                         selectaasample      119claims
                                                                                 claims for
                                                                                         for review
                                                                                             review

          from the
          from the population
                   population of
                              of474,483
                                 474,483 claims;
                                         claims;

     .• obtained
          obtained
                 andand reviewed
                      reviewed    medicalrecords
                                medical    recordsfrom
                                                     from4646providers
                                                              providers(25 (25clinics
                                                                               clinicsand
                                                                                       and2121 practitioners)
                                                                                                practitioners)
               submitted the
          who submitted   the 119
                              119 sample
                                   sample claims
                                           claims to
                                                   to make
                                                      make anan initial
                                                                 initial determination
                                                                         determination as
                                                                                        as to
                                                                                            to whether
                                                                                               whether the
                                                                                                         the
          claimed services were related  to  family  planning  and   eligible for enhanced    90-percent
                                  related to family planng and eligible for enhanced 90-percent
          Federal reimbursement;

     • submitted
     .   submitted themedical
                 the   medicalrecords
                               recordsand
                                       andour
                                           oursample
                                               sampleresults
                                                      results to
                                                              to our
                                                                 our medical
                                                                     medical reviewer,
                                                                              reviewer,a aeMS
                                                                                           CMS

          physician and
                    and policy
                        policy expert
                               experton
                                      onfamily
                                         familyplanning; and
                                                planing; and

     •    estimated the dollar impact of the improper
     . estimated the dollar impact of 
      improper Federal reimbursement claimed in the total
                     of 474,483 claims.
          population of

Appendix A contains the details of
                                of our sample
                                       sample design
                                              design and
                                                     and methodology.

We conducted this
                this performance
                     performance audit
                                  auditinin accordance
                                            accordancewith
                                                        withgenerally
                                                             generallyaccepted
                                                                       acceptedgovernment    auditing
                                                                                  governent auditing
standards.
standards.  Those  standards require  that we  plan and perform the audit to obtain sufficient,
                   standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings
                                                             fmdings and conclusions based on our
      objectives. We believe that the evidence obtained provides a reasonable basis for oUf
audit objectives.  We  believe that the evidence  obtained provides                         our
findings
findings and conclusions based on our audit objective.

                                          FINDINGS
                                          FINDINGS AND
                                                   AND RECOMMENDATIONS
                                                       RECOMMENDATIONS

The
The State
     State improperly
           improperly received
                         received enhanced
                                  enhanced90-percent
                                             90-percentFederal
                                                          Federalreimbursement
                                                                   reimbursementforforfamily
                                                                                        familyplanning
                                                                                                planing
claims
claims submitted
        submitted by clinics
                      clinics and
                               and practitioners.  Ofthe
                                   practitioners. Of   the 119
                                                           119 claims
                                                                claims in our sample,
                                                                       in our  sample, 17 qualified as
family
familyplanning   services. However,
        planing services.    However,the
                                       theremaining
                                            remaining 102102 did       Ofthe
                                                             did not. Of  the 102
                                                                               102claims,
                                                                                  claims, 96 were for
                                                                                                    for
services
servicesunrelated
          unelated to
                    to family
                        family planning,
                               planng, 2 2did
                                            didnot
                                                notinclude
                                                     includea aproperly
                                                                properlycompleted
                                                                         completedsterilization-consent
                                                                                    sterilization·consent




 40fthe
40f        332,083 claims,
      the 332,083      claim, 325,126
                               325,126 claim
                                           claimscontained
                                                    contained Recipient
                                                                  Recipient Aid Aid Category
                                                                                       Category 56
                                                                                                 56 and
                                                                                                    and Recipient
                                                                                                         RecipientMedicaid
                                                                                                                    MedicaidCoverage
                                                                                                                              Coverage


Code    18.   These    claims  were   reviewed     under   our   audit  of  the
 Code 18. These claim were reviewed under our audit of the New York Family PlanngNew    York  Family  Planning  Benefit Program
                                                                                                                        Program
(A-02-07-0l001,
 (A-02-07-0100l,May      May22,2008).
                               22,2008).The  Theremaining
                                                    remaing 6,9576,957 claim
                                                                         claimscontained
                                                                                   contained specialty
                                                                                               specialty code
                                                                                                          code159.
                                                                                                               l59. These
                                                                                                                    These claims
                                                                                                                           claim were
                                                                                                                                  were
reviewed     under    our  audit
 reviewed under our audit of     of the  Medicaid      Obstetrical    Maternal     Services
                                     the Medicaid Obstetrcal Maternal Services Program       Program(A-02-05-0l00l,
                                                                                                        (A-02-05-01001, July20,2005).
                                                                                                                         July  20,2005).



                                                                    4

                                                                    4
form, 3 lacked documentation, and 11 was for                            provided. 5 Based
                                             for a service that was not provided.5    Based on our
                             that the
sample results, we estimate that  the State
                                      State improperly
                                            improperly received
                                                          received $17,151,156
                                                                   $17,151,156 in in Federal
                                                                                     Federal Medicaid
reimbursement. This
                 Thisoverpayment
                       overpayment occured
                                      occurredbecause
                                                becauseproviders
                                                          providersincorrectly
                                                                    incorrectlyclaimed
                                                                                 claimed services
                                                                                          services as
family planning, andthe
       planing, and   theState's  MMIsedits
                          State'sMMIS     editsdid
                                                 didnot
                                                     notadequately
                                                         adequatelyidentify
                                                                     identify claims
                                                                              claims unelated
                                                                                      unrelatedto
                                                                                                to
family planng.
family planning.

SERVICES UNRELATED TO FAMILY
         UNRELATED TO FAMLY PLANNING
                             PLANNING

Pursuant to section 4270 of the manual,
Pursuant to section 4270 of 
                               famly planng
                                                   manual, family  planning  services
                                                                               servicesprevent
                                                                                         preventorordelay
                                                                                                      delaypregnancy
                                                                                                            pregnancy or
otherwise controlcontrol family
                              family size.
                                         size. The manual
                                                      manual states
                                                               states that
                                                                       that oIily
                                                                            onlyitems
                                                                                   itemsand
                                                                                          andprocedures
                                                                                              proceduresclearly
                                                                                                            clearlyfurnished
                                                                                                                     fuished
or provided for           family     planning      purposes  may  be  claimed    at the
                    for family planng puroses may be claimed at the enhanced 90-percent enhanced    90-percent  rate of
Federal
Federal      reimbursement.
        reimbursement. However, for 96 ofHowever,
                                          
           for 96 of the 119
                                                                    119 claims in our our sample,
                                                                                           sample, we determined that the
billed
biled      services
      services          were
               were unelated     unrelated
                             to famly            to family planning. Of the 96 claims, 33 were for services
                                      planng. Of 
                                                         services for
which no
which      no Federal
                Federal Medicaid
                             Medicaidreimbursement
                                             reimbursementwas  was available
                                                                    available and
                                                                                and 6363 were
                                                                                         were for
                                                                                               for services
                                                                                                    services eligible. for
reimbursement at the          the applicable
                                    applicable FMAP FMA rate
                                                           rateof
                                                                of50
                                                                   50oror52.95
                                                                          52.95 percent.
                                                                                  percent.

Ofthe
Of   the 33 33   services
            services for which for   which
                                no Federal          Federal Medicaid reimbursement was available,
                                                no reimbursement
                                           Medicaid                                                available, 27
                                                                                                               27 were
abortion procedures, 4 were services performed in conjunction               conjunction with
                                                                                           with an
                                                                                                an abortion,
                                                                                                    abortion, 11 was
considered medically
considered         medically unnecessary,
                                    unecessar, and       and11was wasaa duplicate
                                                                        duplicate bilL.
                                                                                   bill. Pursuantto
                                                                                          PursuanttoFederal
                                                                                                        Federal regulations
                                                                                                                 regulations
(42 CFR, par 441, subpar E), Federal reimbursement at the standard FMAP rate is available
(42    CFR,     part   441,     subpart      E),   Federal     reimbursement    at the  standard  FMAP     rate is available for
                                                                                                                             for
abortions only when a physician has certified in writing to the Medicaid agency that the life of
the mother would   would be   be endangered
                                    endangered ififthe    thefetus
                                                                 fetuswere
                                                                       werecarried
                                                                            cared toto term.
                                                                                       term. This
                                                                                              Thiscertification
                                                                                                     certification was
                                                                                                                   was not
present
present in any              the 27 cases.6 '
             inofany of the 27 cases.            6
                                                        .                    .


Sixty-three claimed services were eligible for      for reimbursement at the applicable FMAP rate of
50 or 52.95 percent, including chemotherapy treatments, colposcopy  colposcopy examinations, hysterectomy
surgeries,       services
surgeries, services to pregnantto          women, and deliveries of
                                
 pregnant women,                of children.

IMPROPERLY COMPLETED
IMPROPERLY COMPLETED STERILIZATION
                     STERILIZATION CONSENT
                                   CONSENT FORMS

 Section      4270
 Section 4270 of 
     of the manual states that enhanced 90-percent Federal       Federal reimbursement is available
 for the cost of    of a sterilization if       if a properly completed sterilization consent form is submitted in
 accordance
 accordancewith      with the      requirementsof
                             the requirements           of42
                                                           42CFR
                                                              CFRpart
                                                                   par 441,
                                                                        441, subpart       Regulations at
                                                                             subpar F. Regulations       at 42 CFR
    441.256(a) state that Federal
 § 441.256(a)                         Federal Medicaid
                                                    Medicaid reimbursement
                                                               reimbursement "...
                                                                               ". . . is
                                                                                      is not
                                                                                         not available
                                                                                             available in
                                                                                                        in expenditures
                                                                                                           expenditues for
 any sterilization or hysterectomy unless the Medicaid agency, before making payment, obtained
 documentation            showing
 documentation showing that              thatof the
                            the requirements    
                          subpar were
                                                     requirements of this subpart    were met." In Inaccordance
                                                                                                      accordance with
 42 CFR § 441.258(b)(4), the sterilization
.42                                              sterilization consent
                                                               consent form
                                                                       form must
                                                                             must bebe signed
                                                                                         signed and
                                                                                                and dated
                                                                                                     dated by
                                                                                                            by the physician

50fthe 102
SOfthe     102claim,
                claims,3939werewereforforservices
                                           servicesnotnoteligible
                                                          eligiblefor
                                                                   forFederal
                                                                       Federalreimbursement,
                                                                                reimbursement, and
                                                                                                 and6363 were
                                                                                                          were eligible
                                                                                                                 eligible for
                                                                                                                          for Federal
                                                                                                                              Federal
reimbursement atatthe
reimbursement            theapplicable
                              applicableFMAP FMA rate.
                                                     rate. One
                                                            Oneclaim
                                                                 claim,for
                                                                        foraasterilization
                                                                              sterilizationand
                                                                                            and herna
                                                                                                herniasurgery,
                                                                                                       surgery, fell
                                                                                                                  fell under
                                                                                                                       under both
categories.     The sterilization
categories. The sterilization porton ofportion
                                        
        of the claim was not eligible for Federal Medicaid
                                                                                              Medicaid reimbursement because a
                 consent form
sterilization consent       form waswasnotnotproperly
                                               properlycompleted.
                                                          completed. The
                                                                       The hernia
                                                                             herna surgery was
                                                                                            was eligible
                                                                                                 eligible at
                                                                                                          at the
                                                                                                              theapplicable
                                                                                                                  applicableFMAP
                                                                                                                               FMA rate.
We included this  ths claim
                       claimamong
                                among the the 39
                                              39 for
                                                  for which
                                                       which no
                                                              no Federal
                                                                  Federal reimbursement
                                                                           reimbursement is available.
60ne provider
60ne
     provider was
              was responsible
                  responsible for
                               for 25
                                   25 of
                                      of the
                                          the27
                                             27abortion
                                                aborton procedUre
                                                        procedUreclaims.
                                                                  claim. Based
                                                                         Basedon
                                                                               onthe
                                                                                  the procedure
                                                                                      procedure codes
                                                                                                codes used, it
                                                                                                      used, it
appeared
appeared thatthat  this provider
              ths provider billed at billed  at least
                                     least 3,900 aborton3,900   abortion
                                                         claim durg our auditclaims
                                                                              period. during
                                                                                      Of 
                        those 3,900
                                                                                             our audit period. Of those 3,900 claims,
                                                                                                                               claim, we
reviewed only
reviewed     only the
                    the 25
                         25 claims
                              claim inin our sample.


                                                                    5

        perfonned the sterilization
who performed                   sterilization procedure.           Pursuant to 42 CFR § 441.258(c)(2)(iii),
                                                    procedure. Pursuant                                       except in
                                                                                          441.258(c)(2)(iii), except
the case of   ofpremature
                  premature delivery
                                   delivery or   or emergency
                                                      emergency abdominal
                                                                    abdominal surgery,
                                                                               surgery, the
                                                                                        the physician
                                                                                            physician must also certify
that at least 30 days have passed                    between    the date
                                         passed between the date ofthe   ofthe  individual's signatureon
                                                                                             signatue  onthe
                                                                                                          theconsent
                                                                                                               consent
fonn and
form     and the date date upon
                              uponwhich which the the sterilization
                                                        sterilization was
                                                                      was perfonned.
                                                                           performed. Furthennore,
                                                                                       Furhermore, 4242 CFR
                                                                                                         CFR
§  441.258(a)         states    that   the  consent       fonn
§ 441.258(a) states that the consent form must be a copy of     must  be a copy of the
                                                                                   the form
                                                                                       form  appended
                                                                                             appended  to
                                                                                                      to  subpart
                                                                                                          subpar FF of
                                                                                                                     of

§441
§  441    or another
      or another            form
                 form approved by theapproved
                                      Secretar ofthe by  theofSecretary ofthe Department of Health and Human
                                                     Deparent

Services.

For 2 of the 119 claims in
For 2 of                  in our
                             our sample,
                                   sample, a sterilization
                                              sterilization consent
                                                             consent form
                                                                      form was
                                                                             was not
                                                                                 not properly
                                                                                      properly completed.
                                                                                                completed.
For one claim, the beneficiary
                    beneficiar had hadaasterilization
                                          sterilizationprocedure
                                                        procedure approximately
                                                                    approximately 22 months
                                                                                        months after
delivering her child.  The beneficiar's
               child. The    beneficiary'sconsent
                                             consentwaswasobtained
                                                            obtainedonly
                                                                      only2727days
                                                                                daysbefore
                                                                                      beforethe
                                                                                              thesterilization,
                                                                                                  sterilization,
and the consent form did notnot indicate
                                  indicate any
                                            any evidence
                                                 evidence that
                                                           that emergency
                                                                emergency abdominal
                                                                              abdominal surgery
                                                                                          surgery had been
performed. InInaddition,
                addition, this
                           this out-of-State
                                 out-of-Stateprovider
                                               providerdiddid not
                                                              not use
                                                                  use the
                                                                       the required
                                                                            required sterilization
                                                                                     sterilization consent
                                                                                                    consent
form.
form. For
       Forthe
           thesecond
               second claim,
                       claim, thethe physician
                                     physician diddid not sign
                                                          sign or date the consent fonn
                                                                                      form as
                                                                                            as required.
                                                                                               required. For
              no Federal Medicaid
both claims, no            Medicaid reimbursement
                                       reimbursement was available.
                                                               available.

NO DOCUMENTATION

Section 1902(a)(27) of the Act and Federal regulations (42 CFR §§
Section 1902(a)(27) of 
                                                                    §§ 431.17 and
                                                                                                        and 433.32)
                                                                                                            433.32) require
thatservices
that  services
             claimed claimed      for Federal
                     for Federal Medicaid            Medicaid
                                          reimbursement              reimbursement
                                                        be documented. For 3 of 
     be documented. For 3 of the 119 119
claims in our sample, the provider      provider could  could notnot provide
                                                                       provide documentation
                                                                                  documentation to
                                                                                                to support
                                                                                                   support the
                                                                                                            the service
                                                                                                                service billed.
Therefore, Federal Medicaid reimbursement was not available for                           for these three claims.

NO SERVICE PROVIDED

Offce of 
 of Management and Budget Circular A-87, "Cost Principles for
Office                                                                                  for State,
                                                                                            State, Local and Indian
Tribal Governments,"
Tribal     Governents," 22CFR          CFRpar   part225,
                                                     225,establishes
                                                          establishespriciples
                                                                       principlesand
                                                                                  andstandards
                                                                                      standardsfor
                                                                                                 fordetermining
                                                                                                    determining
allowable costs
allowable        costs applicable
                          applicabletotogrants   grantswith
                                                        withState
                                                             Stateand
                                                                    andlocal
                                                                         localgovernments.
                                                                               governents. Attachment
                                                                                            Attachment A,A, section
                                                                                                            section
C.l.c.
C.1.c. of of Circular A-87 states that to be allowable under a Federal award, costs must be
authorized        or not prohibited
authorized or not prohibited                  under
                             under State or local 
   State or local laws or regulations.

State regulations say that by enrolling
                                  enrollng inin the
                                                 the State's
                                                     State'sMedicaid
                                                             Medicaidprogram,
                                                                         program,aaprovider
                                                                                      provideragrees
                                                                                                agrees to
                                                                                                        to
          claims for
submit claims     forpayment
                     paymentfor  forservices
                                     servicesfurnished.?
                                                fushed.? InInaddition,
                                                                addition,Title   18,§§540.7(a)(8)
                                                                           Title18,     540.7(a)(8) states
                                                                                                    states that
all bills formedical
    bils for  medicalcare,
                       care, services,
                              services, and
                                         andsupplies
                                              supplies shall
                                                         shall contain
                                                               contain aa dated
                                                                          dated certification
                                                                                 certification by
                                                                                               by the provider
          care, services,
that the care,  services,and
                          andsupplies
                                suppliesitemized
                                           itemizedhavehavebeen
                                                             beenfurnished.
                                                                   fuished.

For    1 
of the 119 claims in our sample, a provider billed
For 1 of                                                  biled Medicaid
                                                                 Medicaid for
                                                                           for aa counseling
                                                                                  counseling visit.
However, the medical record indicated the      the counseling
                                                   counseling service
                                                               servce was not provided, as the
beneficiar was
beneficiary     wasrushed
                     rushedfrom
                            fromthe
                                  theclinic
                                      clinictotoaahospital
                                                   hospitalfor
                                                            foraapossible
                                                                  possibleectopic
                                                                           ectopic pregnancy
                                                                                    pregnancy shortly
                                                                                                shortly after
                 clinic. Therefore,
entering the clinic.     Therefore, Federal
                                    Federal Medicaid
                                              Medicaid reimbursement
                                                         reimbursement was not not available
                                                                                    available for the
counseling service claim.




70ffcial Compilation of 

70fficial   Compilation of Codes,    Rules
                           Codes, Rules       and Regulations
                                        and Regulations of    of the          
 New York, Title 18, § 504.3(e).
                                                                      Stateof of
                                                                 the State




                                                               6

CAUSES OF THE OVERPAYMENTS

                              of the overpayment: improperly
We identified two main causes of                   improperlycoded
                                                             coded claims
                                                                   claims and
                                                                          and inadequate
                                                                               inadequate
MMS
MMISedit
      editroutines.
           routines.

Improperly Coded
Improperly       Claims
           Coded Claims


For the
For the 96
        96 'sampled
            'sampled claims
                      claims unrelated to family
                             unelated to  family planning,
                                                 planng, 3434providers
                                                              providersincorrectly
                                                                        incorrectly coded the
                                                                                    coded the

Medicaid claim form
               form by
                    by marking
                       marking "Yes"
                               "Yes" in
                                      in the
                                          the family
                                               familyplanning indicatorfield,
                                                      planng indicator  field, using
                                                                                using aa procedure
                                                                                         procedure
code that
code  thatthe
           theMMIS    recognized as
               MMS recognzed     as family
                                     family planning,
                                            planng, orormarking
                                                          markingthe
                                                                   the abortion/sterilization
                                                                       abortion/sterilization field
with an "F" (Sterilization) or "0" (Not Applicable).   Although the 96 claims were
                                        Applicable). Although                   were unrelated
                                                                                        unelated to
family planning,  the MMIS   categorized them   as eligible for enhanced  90-percent
        plang, the MMIS categorized them as eligible for enhanced 90-percent Federal   Federal
reimbursement. Specifically:
reimbursement.

          .• For 9090claims,
               For      claims,the
                                theprovider
                                    providermarked
                                              marked "Yes" in thethe family
                                                                      famly planning
                                                                            planng indicator      field. 8
                                                                                      indicatorfield.8
               Included in these claims were 27 for abortion procedures for which the provider
                             abortion/sterilization field
               marked the abortion/sterilization                 "0" (Not
                                                    field with a "0"  (Not applicable)
                                                                           applicable) or
                                                                                       or left
                                                                                           left the field
                      9
               blan.9
               blank. TheTheMMIS
                              MMIS categorized     theseclaims
                                     categorized these    claimsasasfamily
                                                                     familyplanning
                                                                             plang and
                                                                                     andeligible
                                                                                          eligible for
                                                                                                    for
               enhanced 90-percent Federal reimbursement.

          •    For five claims (three of which were hysterectomies),
          . For five claims (three of 
             hysterectomies), the
                                                                       the MMIS
                                                                           MMS assigned
                                                                                 assigned aa "1"
                                                                                             "I" (Yes)
                                                                                                 (Yes)
               in occurrence
                  occurence "1"
                             "1" (Family  Planng) ininthe
                                  (Family Planning)     thespecial
                                                            specialprogram  code. 10
                                                                    programcode.lo

          .• ForFor
                  one oneclaim,
                            claim,the  theprovider
                                             providermarked markedthe    the abortion/sterilization
                                                                             abortion/sterilization field with an an ''F''
                                                                                                                      "F"
               (Sterilization).         Although         the   claim    was
               (Sterilization). Although the claim was for treatment of 

                                                                              for treatment       throat
                                                                                              ofthroat   pain,
                                                                                                         pain, the
                                                                                                               the MMS
                                                                                                                   MMIS
               categorized the claim as family planning           plannng and  and eligible
                                                                                    eligible for
                                                                                              for enhanced
                                                                                                   enhanced 90-percent
                                                                                                             90-percent Federal
                                                                                                                           Federal
               reimbursement.

Inadequate Medicaid
Inadequate Medicaid Management
                    Management Information
                               Information System
                                           System Edit Routines

The MMIS's     edits did
     MMIS's edits    did not
                         not always
                              always correctly
                                      correctlyidentify
                                                 identifyclaims
                                                           claims for
                                                                   for enhanced
                                                                       enhanced90-percent
                                                                                  90-percentFederal
                                                                                                 Federal
reimbursement.
reimbursement. TheThe design
                        design of
                                ofthe
                                  the computer
                                       computer edits in the MMISMMS was wassuch
                                                                             suchthat
                                                                                    that the
                                                                                          the presence
                                                                                              presence ofof a
"Yes'~in
"Yes"   ineither
           eitherthe
                  thefamily
                       familyplanning
                               plannngindicator
                                         indicatorfield
                                                    fieldororoccurrence
                                                              occurence"1" "1"(Family
                                                                               (Famly Planning)
                                                                                         Plannng) ofthe
special program code or an "F" in  in the sterilization/abortion
                                           sterilization/abortion field
                                                                    field was
                                                                          was the
                                                                               the only
                                                                                   only element needed for
                                             planning. As noted above, 90 claims contained a "Yes"
the system to classify a claim as family planning.        As noted  above,  90  claitns                ''Yes''
in the
   the family planning   indicatorfield,
               planing indicator    field,yet
                                           yetnone
                                               none of
                                                     ofthe
                                                         the claimed
                                                             claimed services
                                                                       servicesrelated
                                                                                 relatedtotofamily
                                                                                               familyplanning.
                                                                                                      planng.

80ffcials atatPlaned
80fficials     PlannedParenthood
                       Parenthoodproviders
                                  providersstated
                                             statedthat
                                                     thatthey
                                                           theybelieved
                                                                believedthat
                                                                          thatnearly
                                                                               nearlyall
                                                                                      allthe
                                                                                          theservices
                                                                                              services they
                                                                                                        they provide
                                                                                                             provide are
                                                                                                                       are
related to
related  to family
             familyplanning.
                    plang. However,
                             However,the
                                       themedical
                                           medicalreview
                                                     review determed
                                                               determinedthat
                                                                           thatthe
                                                                                theproviders
                                                                                    providers imroperly
                                                                                               improperlyclaimed,
                                                                                                             claimed, for
example,
example, services
           servicestotopregnant
                        pregnantwomen,
                                 women,treatment
                                         treatmentforforsexually
                                                          sexuallytransmitted
                                                                    tranmitted diseases,
                                                                                diseases,and
                                                                                           andcounseling
                                                                                                couneling visits
                                                                                                            visits unrelated
                                                                                                                   unelated to
familyplanning
family  planng services.
                  services.

9Forclaims
!/Por claim maked
             marked "A,"
                       "A," "B,"
                            "B," "C,"
                                  "C," or,  "D" in
                                        or. "D" in the
                                                   the abortion/sterilization
                                                       aborton/sterilizationfield,
                                                                              field,the
                                                                                     theMMIS
                                                                                         MMS denied
                                                                                               deniedthe theclainis
                                                                                                             clain and
                                                                                                                    and sent
                                                                                                                        sent
      back to
them back   to the
                the provider
                    providerfor
                              forclarification
                                  clarificationbecause
                                                 becauseabortion
                                                          abortonprocedures
                                                                   proceduresarearenot
                                                                                    notconsidered
                                                                                        considereda afamily
                                                                                                       famlyplanning
                                                                                                              planng service.
                                                                                                                       service.

IOFor four of

IOPor           the five
       four of the  five claims,
                         claim, the
                                 theprovider
                                     providerused
                                              usedaa procedure
                                                     procedure code tht caused
                                                               code that caused the MMIS
                                                                                    MMIS to tocode
                                                                                               code the
                                                                                                     the claim
                                                                                                         claim as family
                                                                                                               as family
planning.
plang. WeWe      couldnot
               could     notdeterme
                             determinewhy
                                       why  theMMIS
                                          the   MMIS   codedthe
                                                     coded   the remaing
                                                                 remainingclaim
                                                                           claim as
                                                                                  as family
                                                                                      familyplanning.
                                                                                              plang.




                                                                7

 Even when providers
               providers correctly
                          correctlymarked
                                      marked''No''
                                                "No"ininthe
                                                         thefamily
                                                             familyplanning     indicator field
                                                                     planng indicator      field for
                                                                                                 for certain
services (e.g.,
          (e.g., hysterectomies),
                 hysterectomies), thethe MMIS    categorized the
                                          MMS categorized      the corresponding
                                                                   corresponding claims as family
planningservices
planing    servicesbecause
                     becauseof ofthe
                                  theprocedure
                                      procedure code
                                                   code used.
                                                         used. Finally,
                                                                Finally, for
                                                                          for claims
                                                                              claims coded
                                                                                      coded with an "F"
(Sterilization)  in the
(Sterilization) in  the sterilization/abortion
                        sterilization/abortion field,
                                                 field, the
                                                        the MMIS
                                                            MMIS considered
                                                                    considered thethe corresponding
                                                                                      corresponding service·
                                                                                                        service'
as related to
            to family
               familyplanning     even ififthe
                        planing even       the family
                                               family planing
                                                       planningindicator
                                                                  indicatorfield
                                                                             fieldand
                                                                                   andthe
                                                                                       the special
                                                                                             special program
                                                                                                     program
code were marked
             marked ''No.''
                      ''No.''

., ESTIMATION
   ESTIMATION OF THE UNALLOWABLE AMOUNT

Of
Of   the 119 claims in our        our statistical
                                         statistical sample,
                                                         sample, 17    17qualified
                                                                            qualifiedasasfamily famlyplanning
                                                                                                        planing services
                                                                                                                 services eligible
                                                                                                                          eligible for
Federal Medicaid reimbursement at the 90-percent rate.                                     However, the
                                                                                   rate. However,        the remaining
                                                                                                             remaining 102
                                                                                                                        102 sample
claims
claims were were    improperly
            improperly                 paidrate.
                       paid at the 90-percent       Of 
 90-percent rate. Of the 102 claims, 39 were not eligible for
                                               at the
any Federal Medicaid reimbursement and 63 were eligible for reimbursement at the applicable
FMAP rate of       of 50 or 52.95 percent. percent. Based Based on   on the
                                                                          the results
                                                                                results of ofour
                                                                                               our sample,
                                                                                                     sample, we estimated
                                                                                                                 estimated that the
State    improperly received
State improperly                           $17,151,156
                            received $17,151,156                in Federal
                                                 in Federal Medicaid             Medicaid
                                                                     reimbursement.              reimbursement.
                                                                                    The details of 
               The details of our
sample results and estimates are shown in Appendix B.

RECOMMENDATIONS

We recommend that the State:

     •.    refund$17,151,156
          refud    $17,151,156toto the
                                   the Federal
                                       FederalGovernment,
                                               Governent,


     •. reemphasize
          reemphasizetotoproviders
                           providersthat
                                     thatservices               relatedtotofamily
                                         services only directly related     familyplanning
                                                                                   planng should
                                                                                           should be
                                                                                                  be
          biled
          billed as  familyplanning,
                 as family  planng,

     •. ensure
          ensurethat
                  thatMMIS
                       MMISedits
                             editsuse
                                   useallallappropriate
                                             appropriateclaim
                                                         claiminformation
                                                               informationtotoidentify
                                                                               identifyclaims
                                                                                        claimsthat
                                                                                               that are
                                                                                                    are
          ineligible for enhanced 90-percent Federal reimbursement, and

          . determine
     •. . determine          the
                    the amount               Federal Medicaid
                               of
 amount of Federal Medicaid funds
                                                               fuds improperly
                                                                     improperlyreimbursed
                                                                                reimbursed for claims
            unelated
            unrelated to    to family planning
                                       plang subsequent  totoour
                                                subsequent    ouraudit
                                                                  auditperiod
                                                                        periodand
                                                                               and refud
                                                                                   refundthat
                                                                                          thatamount
                                                                                               amount to
                                                                                                       to the
            FederalGovernment.
            Federal       Governent.

NEW YORK
NEW YORK STATE
          STATECOMMENTS
                COMMNTS AND OFFICE OF
                        AND OFFICE OFINSPECTOR
                                      INSPECTORGENERAL

                                                GENERA
RESPONSE
RESPONSE


In its comments on our draft report,          report, the State generally
                                                                  generally concurred
                                                                              concured with
                                                                                         with our
                                                                                              our first
                                                                                                   first recommendation
        fully concurred
and fully        concured with  with ourour remainng
                                              remainingrecommendations.
                                                            recommendations. Regarding
                                                                                   Regardingour
                                                                                             ourfirst
                                                                                                  first recommendation
                                                                                                         recommendation
    refud $17,151,156
to refund        $17,151,156 to     to the
                                        the Federal
                                              Federal Governent,
                                                         Government,the  theState
                                                                             Staterequested
                                                                                   requestedcopies
                                                                                             copies ofofour
                                                                                                          our related
working papers and        and indicated
                                indicated that, that, following
                                                       followingaareview
                                                                    reviewofthe
                                                                              ofthe working
                                                                                    workingpapers,
                                                                                             papers,ititwill
                                                                                                          willrefund
                                                                                                               refud any
excess Federal reimbursement associated with claims inappropriately classified as family
planning.
planng.           We the
         We wil provide will  provide
                          State             of 
 State with copies of working papers related to claims questioned
                                with copies the

by our audit. The       TheState's
                             State'scomments
                                         commentsare    areincluded
                                                             includedinintheir
                                                                          theirentirety
                                                                                entiretyas
                                                                                         asAppendix
                                                                                           Appendix C.  C.




                                                                    8
APPENDIXES
APPENDIXES

                                                                                                            APPENDIXAA
                                                                                                           APPENDIX

                                                                                                              Page
                                                                                                               Page Ilof2
                                                                                                                      of2

                                 SAMPLEDESIGN
                                SAMPLE DESIGNAND
                                              AND METHODOLOGY
                                                  METHODOLOGY

POPULATION
POPULATION
 Thepopulation
The     populationwas      wasMedicaid
                                  Medicaidclaims  claimsbilled
                                                             billedby  byNew
                                                                          NewYork
                                                                                YorkState
                                                                                     Stateatat90-percent
                                                                                               90-percentFederal
                                                                                                           Federal
 reimbursement            for   clinic    and    practitioner
reimbursement for clinic and practitioner services durng our April 

                                                                     services during our April  1,
                                                                                                1, 2003,
                                                                                                   2003, through
                                                                                                          through March
                                                                                                                  March31,
                                                                                                                        31,
 2007, audit
2007,      auditperiod.
                    period.

SAMPLING FRAME
SAMPLING  FRAE
The sampling
The    samplingframe
                 frame was
                         wasaaMicrosoft
                               MicrosoftAccess
                                          Access computer
                                                  computerfile
                                                             file containing
                                                                   containing474,483
                                                                               474,483 Medicaid
                                                                                         Medicaid claims
                                                                                                    claims
 for clinic
for  clinic and
            and practitioner
                 practitioner services
                               servicesbilled
                                        biledasasfamily
                                                   familyplanning
                                                          plang atat90-percent
                                                                      90-percent Federal
                                                                                    Federal funding   during
                                                                                             fuding durng
our   review  period.  The  total Medicaid  reimbursement    for the 474,483    claims  was
our review period. The total Medicaid reimbursement for the 474,483 claims was $51,704,945   $51,704,945
($46,532,392 Federal
($46,532,392     Federal share).  The Medicaid
                          share). The  Medicaid claims
                                                  claims were
                                                          were extracted
                                                                extracted from    the paid
                                                                           from the   paid claims'  files
                                                                                           claims' files
maintained    at the Medicaid   Management    Information   System   fiscal
maintained at the Medicaid Management Information System fiscal agent.       agent.

SAMPLE UNIT
SAMPLE UNIT

The sample
The   sample unt
              unitwas
                   wasananindividual
                           individualMedicaid
                                     Medicaidclaim
                                               claimfor
                                                     foraaclinic
                                                           clinicand
                                                                  andpractitioner
                                                                       practitionerservice
                                                                                    service billed
                                                                                            billed as
                                                                                                   as
farriily planning at
family planning   at the
                     the enhanced
                         enhanced Federal
                                   Federal reimbursement
                                           reimbursement rate   of90
                                                          rate of  90 percent.
                                                                      percent.

SAMPLE DESIGN

SAMPLE DESIGN

We     used stratified random sampling to evaluate the population of Medicaid clinic and
We used stratified random sampling to evaluate the population of 


practitioner
practitioner claims.claims. To   Toaccomplish
                                       accomplishthis,    this, wewe separated
                                                                      separated the
                                                                                 the sampling
                                                                                      sampling frame
                                                                                                frame into
                                                                                                      into three
                                                                                                           three strata as
                                                                                                                 strata as
follows:
follows:

            Stratum
            Stratum 1:  Claimswith
                    i: Claims withaaFederal
                                    Federal share
                                             share payment
                                                   payment amount from $0.01
                                                                       $0.01 to
                                                                             to $250.00­
                                                                                $250.00­
            466,980 claims.

            Stratum
            Stratum 2:  Claims with
                     2: Claims with aa Federal
                                       Federal share
                                               share payment
                                                     payment amount
                                                             amount from
                                                                    from $250.01
                                                                         $250.01 to
                                                                                  to $1,000.00­
                                                                                     $1,000.00­
            7,484
            7,484 claims.

            Stratum
            Stratum 3:
                     3: Claims with a Federal share payment amount
                                                            amount greater
                                                                   greater than
                                                                            than$1,000.00­
                                                                                $1,000.00­
            19 claims.
            19 claims.

                                                                                                        APPEND.IXA
                                                                                                        APPEND.IXA
                                                                                                          Page    of2
                                                                                                           Page 2 of2

SAMPLE SIZE
SAMPLE SIZE

   selected aa sample
We selected    sample of
                      of119
                         119 claims
                             claims as
                                    as follows:
                                        follows:

              50 claims
              50 claims from
                        fromthe
                             the first
                                  first stratum,
                                         stratu,

              50 claims
              50 claims from the second
                        from the  second stratum,
                                         stratu, and
                                                  and

               19 claims
               19 claims from
                         from the
                              the third
                                  third stratum.
                                         stratu.



SOURCE OF THE
          THE RANDOM
              RADOM NUMBERS
                     NUMBERS

We used the Office of Audit
            Offce of  Audit Services statistical
                                     statistical software
                                                 softare totogenerate
                                                              generateour
                                                                       oursample.
                                                                           sample.

METHOD OF
       OF SELECTING
          SELECTING SAMPLE
                    SAMPLE ITEMS

Wesequentially
We sequentially numbered
                numberedthe
                         the466,980
                             466,980claims
                                     claimsininstratu
                                                stratum1 1and
                                                           andthe
                                                               the7,484
                                                                   7,484claims
                                                                         claims in
                                                                                 in stratum 2.
                                                                                    stratu 2.

After generating
After generating 50
                  50 random  numbersfor
                      random numbers for both
                                         both stratu
                                              stratum11and
                                                        andstratu
                                                            stratum2,2,we
                                                                        weselected
                                                                           selected the

                                                                                    the
corresponding frame items. We selected all ofthe claims in stratum 3. We created a list of the
corresponding frame items. We selected all ofthe claims in stratu 3. We created a list of 


119 sample items.

TREATMENT OF
          OF MISSING SAMPLE ITEMS

The sample item was considered an
                               an error
                                  error if               documentation could
                                        if no supporting documentation could be
                                                                             be found.

ESTIMATION METHODOLOGY

We
We usedused    RAT-STATS
        RAT-STATS                     to calculate
                  to calculate our estimates. We used the our
                                                          lower estimates.
                                                                limit of 
                              the 90-percent
                                                                             We used the lower limit ofthe
confidence interval to estimate the overpayment associated                 associated with
                                                                                      with the
                                                                                           the improper
                                                                                               improper claiming.
                                                                                                         claimng.
                                                                              APPENDIXB

                          SAMPLE
                          SAMPLE RESULTS
                                 RESULTS AND ESTIMATES

                                 Sample Details and Results
                                                                                Overpayment
                                                                                 Associated
                                                                                    With
                            Value of                Value of                    Unallowable
                             Frame                   Sample                        Claims
  Stratum
  Stratum
    Claims in     (Federal     Sample     (Federal      Unallowable     (Federal
  Number
  Number
      Frame         Share)       Size       Share)         Claims         Share)
      1  1

    $0-$250

    $0-$250   466,980      $42,772,573       50     $4,683               37       $1,966
        2

>$250-$1,000

::$250-$1,000   7,484        3,711,582       50     24,693               46       17,654
        33

    >$1,000
    ::$1,000       19           48,237        19  48,237                 19       25,479
      Total   474;483 .
              474,483      $46,532,392       119 $77,613                102      $45,099


               Estimated Overpayments Associated     With Unallowable Claims
                                          Associated With
                  (Limits Calculated
                  (Limits            for aa 90-Percent
                          Calculated for    90-Percent Confidence
                                                       Confidence Interval)
                                                                  Interval)

                          Point Estimate:
                                Estimate:
         $21,027,247
                          Lower Limit:
                                 Limit:
           $17,151,156

                                                   $17,151,156
                          Upper Limit:             $24,903,337

                                                   $24,903,337
                                                                                                                                                                                             APPENDIXC
                                                                                                                                                                                              APPENDIXC
                                                                                                                                                                                                Page
                                                                                                                                                                                                 Page11of3
                                                                                                                                                                                                        of3
  (""~_.~~_._.
             _'~~_~_~'_"'_"_~""'_"                                __ "":·""_A"""_'"""""'·".,           _..,., _"••   >.,_~   __ •..,__ ._    ,         __              _".__•••_ ••   _~_~._.,.      __,..         ".~    ..••.•• '\,
(".."~~_.~_,_"___~_~_~,-",-",.."_,,,.,_.....,........-.,...... _.,~'",_.._ '.., ,.,......,.....,....,.. .co.,......,., ."...., --._...,........,.. .....".... ..'.... -.'....'..."'---...-..~~-~.-.'"..-."---".-~,.'.....¡,





               .IIQII
               ., .:S.TATEOF
                    :
                        ST'It'J'E 'O'F
                                    NEWN'E'W'YORK

                        D~EPARTMENT:OF"HEALTH
                                              y'OR'K
                .. DEPARTMENT 
         OF HEALTH
                                                               C.onilngTower
                                                              ComlngTower       The GQv~mor
                                                                          The GO.vernor Nelson Nelson A. Rocke/eller'Empire
                                                                                               A. Rocefeller 
                                      State Plaz
                                                                                                                                            Empire State  PlazaAlbany,
                                                                                                                                                                 Albany, New
                                                                                                                                                                          NewYork
                                                                                                                                                                              York12237

                                                                                                                                                                                   12237

                 RichardF.F.Daines,
                             Daines,M.D.
                                     M.D.                                                                                                                                   Wendy
                                                                                                                                                                            WendyE.E.Saunders
                                                                                                                                                                                      Saunders
                Richard
                  CQmmi$sioner                                                                                                                                                 ChiefofStaff
                                                                                                                                                                                ChiefofStaff
                 Commissioner


                                                                                                        October14,
                                                                                                        October 14,2008
                                                                                                                    2008

                                 James     Edert
                                       P. Edert

                                James P.
                                Regional InspectorGeneral
                                Regional.Inspector        General for
                                                                   for Audit'8ervices
                                                                       Audif'Services
                                 Department
                                Deparent of     tlfHealthandHuman
                                                   Health                Services
                                                           and Human Services
                                                                                                                                                                                                                                  ,
                                 RegionU
                                RegionU                                                                                                                                                                                           ~.
                                 JacOb Javìtz
                                Jacòb    Ji\Vitz Federal
                                                 Federa Building
                                                           Buidig
                                                                                                                                                                                                                                  :"

                                 26 Federal
                                26   Federal Plaza
                                               Plaz                                                                                                                                                                               i!:
                                NewYo~ New
                                NewYork.       New YorkYork 10278
                                                             10278'                                                                                                                                                               ~i~
                                                                                                                                                                                                                                   ~
                                                                                                                                                                                                                                   ,:.

                                                                                                         Ref. No. A-02-07-01037
                                                                                                          ReiLNo. A-02-07-01037

                                 DearMr..
                                 Dea Mr•.Eden:
                                          &teet:

                                      Enclosed
                                      Enclosed      the the
                                               are are                Deparent ofDepartnientofHeidth's
                                                            New ¥otkState
                                                        New YotkState             
                        commentS
                                                                                               Health's comments on
       the
                                                                                                                        onthe
                                 Department      oflIealth·   alid Human     Services,
                                 Deparment oflIealthardHuman Services, Office of 
     Office of Inpector
                                                                                                 Inspector   General's   draft
                                                                                                              General'sdr-aft  audit
                                                                                                                                audit
                                 report   A-()2:.o7~01037      on "Review
                                 report A-()2-07~Ol037 on"Review of 
         ofClinic
                                                                                 Clinc and.Practitioner
                                                                                       and Practitioner   Claims.
                                                                                                        Claims      Billed
                                                                                                               Billed      as
                                                                                                                           as  Family
                                 PlliIining'Seroces
                                 Planng'Setvces  Under   Uilderthethe New YOlkState      Medicaid Program."
                                                                             YorkState MedîcaidProgram."



                                        Thankyou fortheöpportty. tocommeIit.
                                        Thankyouforthe.opportunity tocoiìent.                                                                                                                                                      l:~



                                                                                                                                                                                                                                   t!
                                                                                                                                                                                                                                   ~~~
                                                                                                                                                                                                                                   .-.;

                                                                                                                                                                                 -'

                                                                                                                                                                                                                                   I¡
                                                                                                                                                                                                                                      :';.




                                 Enclosure
                                 Enclosure
                                                                                                                                                                                                                                   '.~
                    c.c;  StephenAbbott

                     cc:Stephen    Abbott
                          Deborah
                           Debora Bachrach

                                    Bachrach

                          Homer.Charbonneau.

                           Homer .Charbonneau
                          RQnall,fFlIll'.eR
                           RQnald:Faiell
                          Gail Ketker

                           GallKetker
                          Sandra
                           Sandra Pettinato

                                   Pettnato

                          Robert
                           RobertW.W.ReedRee                                                                                                                                                                                          ,j:

                          James
                           JamesSheehan
                                 Sheehan                                                                                                                                                                                                 .\:
                                                                                                                                                                                                                                       ~:
                                                                                                                                                                                                                                      ¡':
                                                                                                                                                                                                                                      i
                                                                                                                                                                                                                                      ¡...


                                                                                                                                                                                                                                         ¡~!.
                                                                                                                                                                                                                                         :;;-~
                                                                                                                                                                                                                                                                                                                                                        APPENDIXC
                                                                                                                                                                                                                                                                                                                                                         APPENDIXC
                                                                                                                                                                                                                                                                                                                                                           Page
                                                                                                                                                                                                                                                                                                                                                            Page22of3
                                                                                                                                                                                                                                                                                                                                                                   of3

  ':" . . . . . . . ....,.:.-.................:   . . . . P . . .•.......   ~   . . . . ~_ • • : ' _ • • _   •   .,...#._.   •...,.._.._..... .-,.__.. .._.
                                                                                                                                                   ~_         "A',   ~._   • • • • •,   • • • • • • • • • • ~.,_._ ••- _   ••• _ ••• _   ••   ~   ••••   ~~ ••   " " - • • • • __ • • _ • • • _ .   • • • • • • • • • • • • • • • • • • • • _.       .__ .. __   _-_._._-~   .. _   :

':" .u.~.."","~.... ........:_"..~.,...~'~. _...~_.._... ._,..,._ ._____._..#..__...J..._~____.._ ._-~. ",'. ......





                                                                            New    York State Dep'artmentof
                                                                             NewYo,rk                            Health '
                                                                                               Departmentof Health
                                                                          , 'Comments on the
                                                                           , , ,       'C:om:ments   on    the'           '
                                                                         Departmento,f Health and HumanServic'&s Services '
                                                                                                                        Departmentaf Health 
                                                                                and Human

                                                                                 Office ofInspector          General's ' '
                                                                                            Inspeetor General's                              Office                    of

                                                                             DraftAudit
                                                                             Draft        R~p()'rtA-02-07-01'037
                                                                                    AuditRepo'lt   A-O:2-0'7-01.037onon
                                                                ,"Review ofClinieand
                                                                ,"Review                  Pra'ctitiorlE~.. ClaimsBllled,as Family

                                                                           ofClittleandPra'ctitlon~rClaimsBnled'as          Family
                                                                   'Planning  Services  Underthe'New¥ork         'Slate'
                                                                  'Planning Services UndertheNewYorkStåte' Medicaid      Medicaid

                                                        ,               ,
                                                                                                                                                                                             Program"
                                                                                                                                                                                                  ~',"
                                                                                                                                                                                             P,rogram  ­­                                                                                                                                        ,




                                                        The
                                                       The    following
                                                           following       are York
                                                                     are théNew the NewYdtk        State Department of
                                                                                    State Department
               'ofHealth~$
                                                                                                                        Health);    (Depa'rtrnent) comments
                                                                                                                                (Department)
      comments
                                                        iriresponse to the Departmeiit ofHealth
                                                        iriresponse to the Department of 
            Health  'and Human
                                                                                                             'and  Human Services;
                                                                                                                          ServiceSi Offce
                                                                                                                                     O'fli'ceof  Inspector'
                                                                                                                                              ofInspector
                                                         General's
                                                        General's (OIG)(OIG)    draftaudit
                                                                               draft           report  A~02;'07";01037 on ftReview ofClihi¢aOd     Pr~ct!tionet

                                                                                      audit reportA~02~07~01 037 on "Review QfClinicand Practitioner
                                                         Claims Biled
                                                        Claims     Billed as    Family Plannin9Se~ieesUnder
                                                                            as Family     Planning 'Ser'i(ieesUnderthe theNewYork
                                                                                                                           NewYorkState
                                                                                                                                     StateMedicaid
                                                                                                                                              Medicaid

                                                        Program"(A-02~07-=01'37).
                                                        Program"      ('A.:(j2.:07':'01'()37).' ,

                                                       01G Recommendations:.
                                                       016 Recommendations:. ' '

                                                    ,,OIG
                                                      OIG recommends thaftbe
                                                          recommends that     Department:
                                                                          the Department:

                                                                            •               refund $17.15:1,15~ to' the Federal Govemment,
                                                                            . refund $17.151,15n to the Federal 
               Government;

                                                                            •              reemphasize to ,providers
                                                                            . reemphasize to              providers thatthat
                                                                                          ,should'be biUed as Jamily planning.
                                                                                          ,shouldbe biled as 

                                                                                                                              $ervices,
                                                                                                                         services,

                                                                                                                                                    family planning. '
                                                                                                                                               directly re1atedto,family
                                                                                                                                   only 
 only;directly relafedfo,Jamily planning


                                                               "
                                                               ". .   ensure
                                                                  ensurethat
                                                                      that
                                                                             MMISthat

                                                                      that are
                                                                                   editsMMIS edits use'
                                                                             are ineljgitlle,for
                                                                                  'jneligi9Ie,for enhanc.ed   90\.;percent Federal
                                                                                                   enhanc.d 9();.percent
                                                                                determine the:am:ounfofFederal Medioald
                                                                            •. determinetheamounfofFederalMedicaid
                                                                                                                                      , '

                                                                                                     use all a.PP'rof:lIiateCl~itriinfOtitlation
                                                                                                             8PpröpriatecJaim införrtiation loic,ientiJyc,laims
                                                                                                                                                 töic,êntifYcJaims
                                                                                                                             Federal reimbursement,
                                                                                                                                       reimbursement, and
                                                                                                                                fundsimproperly
                                                                                                                              funds
                                                                                                                                                        and
                                                                                                                                       improperlyreimbursed
                                                                                                                                                  reimbursed for
                                                                                claims   linrelated
                                                                                ciåiirs lin  related   to family pl,aMJng
                                                                                                       to family planningsubsequenttoits  aUdit period
                                                                                                                          subsequenttoits audit period and
                                                                                                                                                       and refund
                                                                                                                                                           refund that'
                                                                                                                                                                   that' ''
                                                                                amount
                                                                                amount to 
to  the
                                                                                               the,  FedEmil.Government.
                                                                                                     Federàl ,Government.

                                                  ,;', Debartfnent
                                                       .' Departent Response:
                                                                    Response:
                                                  ..The
                                                    The Department will take,thefolloWingactipns
                                                        DepartmèntwlU    take,thefoIlowingàctions relative
                                                                                                  relative totheOlG   recommendations,:,
                                                                                                            totheOIG recom'mendations:,
                                                                            •. TheThe     Departnient
                                                                                      Departnint requests requests to    to be
                                                                                                                             be furnished
                                                                                                                                 furnished a:cop¥
                                                                                                                                               aeopy óf    of the
                                                                                                                                                              the OIG    wo'rkpaper,s
                                                                                                                                                                   OIG wo'rkpape'r,s

                                                                                   supporting
                                                                                    supportingthe   therecommended
                                                                                                         recommended refulidamQUoti
                                                                                                                              refundamouot¡ includinga'              listing of ttleclaim
                                                                                                                                                      irïtludingäi¡stjngöfttie         claiin
                                                                                ,, reference
                                                                                   reference
                                                                                                  numbers      for the claims
                                                                                                   numbers for th~,claiìns in     inlheauditsample.FoJlowihg
                                                                                                                                     the   auditsaf!ple.                       review
                                                                                                                                                                  FO,lIowihg review of       this
                                                                                                                                                                                         ofthis
                                                                                   data,
                                                                                    data,the the'Departm~nt
                                                                                                  Departrnentwill   wilrefund
                                                                                                                        refundany any e~ces$
                                                                                                                                       e~cessFe.deralFederalreimbuTsementassociated
                                                                                                                                                                reimbursementassociated                                                                                                                                                                                              ~
                                                                                 witb
                                                                                    with claims
                                                                                            claimsdetermined
                                                                                                     determined to   to have.
                                                                                                                        have.beenbeeninappropriately
                                                                                                                                        inappropriately cfassified.asfamily
                                                                                                                                                                crassified.as family
                                                                                  planning.
                                                                                    planning.

                                                                            •. TheThe       Department
                                                                                     Department wil      will include
                                                                                                               include    an
                                                                                                                           anClrticlein
                                                                                                                               artielein an.upcomii'\9
                                                                                                                                         an,upcomiilgedition
                                                                                                                                                         editiononts
                                                                                                                                                                 ofits monthly
                                                                                                                                                                       monthly
                                                                                   Medicsid Up~ate
                                                                               , MediC9jd        Upçlate prov,ider
                                                                                                           provider pubtication
                                                                                                                         publicationreminding
                                                                                                                                       remindingproviders
                                                                                                                                                  providers thatonlyservices
                                                                                                                                                               thatonlyservces ,,

                                                                                 directly
                                                                                   directly'  related
                                                                                               relatedtotofamily
                                                                                                            familyplan'ning     should-be
                                                                                                                       pleîlining  shoùldbebilled
                                                                                                                                             biledasasfamily
                                                                                                                                                        familyplanning.
                                                                                                                                                                planning. '
                                                                                                                                                                                                                                                           APPENDIXC
                                                                                                                                                                                                                                                           APPENDIXC
                                                                                                                                                                                                                                                             Page
                                                                                                                                                                                                                                                              Page 33 of3
                                                                                                                                                                                                                                                                      of3

~'''':-~':'' ~=:;:'.-~~~.."; ~...: :,.. :",~".:' 'iit ~,._'_ ..,'",............"._..~-...._-..~ ~.~: '~-'-'.~~ ,.~-"-"""',_..-...........~...._~.:... ,_..,,,.~.....v.,............_..
                                                                                                                                                       - _. .'..' .~.,' :'."~'
        .._._.._",___;:"_:-"'.-'.~ ......_.._......._....,.~__..._____...._". .,. -..... ._..___~...,.-. ...._._ _ _ H ..

                                                                                                                                                                                                                                                                                             ""'..~-~-i



                                                                                                                                              22



                                       ~ The Departmentwillr~View the relevaoteMe~NY editlQ~ic toverify
                                      ~ The Departmentwilreview the relevanteMedNY editlQgìc to 
 verifythethesystem
                                                                                                              ,system
                                              ,controls
                                                controls    in place.
                                                        in place,  It wil It                   review the the sample
                                                                             will additiomillyreview
                                                                          additionally 
                       sampleof ofClaims
                                                                                                                           claims to
                                                                                                                                   to better
                                                                                                                                      better
                                                l:Inderstand how
                                               understand        how program integrity can,   can bebe strengthened~       Required changes wiI
                                                                                                        strengthened. Requjredchanges        will
                                                beinitiated
                                               be   initiated   to the
                                                             to the      extentadditional
                                                                    extent         additional  system
                                                                                           system controlscontrols
                                                                                                           
        can
                                                                                                                   can be
be designed.
                                                                                                                             designed.

                                       •        The Department will refund any
                                      . The Department wil refund 
               any excess
                                                                                       excess Federal
                                                                                               Federal    Med,icaidfundingit
                                                                                                      Medicaid    funding   it determines
                                                                                                                               determines
                                                was improperly reilribursedsubsequent to the audit period,'bs.sedon
                                               was improperly reimbursed subsequent to the audit period 

                                                                                                                    ,'based  on its  review of
                                                                                                                                 Usreview   of
                                                theDIGOIG
                                               the         workpapers
                                                       workpapers                    above. '
                                                                  requested requestedab,ove.
                                                                                                            \.




                                                                                                                                                                                                                                                                                                            ;'.

                                                                                                                                                                                                                                                                                                            o


                                                                                                                                                                                                                                                                                                            l.;
                                                                                                                                                                                                                                                                                                            ,:;.




                                                                                                                                                                                                                                                                                                            ~

                                                                                                                                                                                                                                                                                                            ~
